STATE OF NEW YORK
OFFICE OF THE ATTORNEY GENERAL
LETITIA JAMES

BARBARA D. UNDERWOOD
SOLICITOR GENERAL
DIVISION OF APPEALS & OPINIONS

ATTORNEY GENERAL

January 2, 2020
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re: Poole v. New York State Citizens’ Coalition for Children, No. 19-574
Dear Mr. Harris:
I am counsel for petitioner in the above-referenced case. In accordance with
this Court’s Rule 15.5, petitioner waives the 14-day waiting period for distributing
the petition and respondent’s brief to the Court. Petitioner does intend to file a reply
brief shortly, in time for the Court to consider it in its upcoming conferences.
know.

Should you need any additional information, please do not hesitate to let me

Respectfully submitted,
Steven C. Wu
Deputy Solicitor General
cc: Brian R. Matsui, Counsel to Respondent (by email and mail)

28 LIBERTY STREET, NEW YORK, NY 10005-1400 • PHONE (212) 416-8020 • FAX (212) 416-8962 *NOT FOR SERVICE OF PAPERS
WWW.AG.NY.GOV

